           Office of Inspector General




April 21, 2005

JOHN M. NOLAN
DEPUTY POSTMASTER GENERAL

SUBJECT: Vehicle Management – National Trailer Lease – Unresolved Audit
         Recommendations (Report Number NL-MA-05-001)

This report is a follow-up on unresolved recommendations from our audits of the Postal
Service’s National Trailer Lease (Project Number 05YG001NL002).

During fiscal year 2000, the Postal Service began a major, multiphased, corporate
initiative to terminate local trailer contracts, centralize trailer acquisition at Corporate
Headquarters, and commit to a single national contractor. In September 2000, the
Postal Service signed a “National Trailer Lease” with Transportation International Pool,
Inc., a wholly-owned trailer leasing subsidiary of General Electric. The anticipated cost
of the 12-year agreement was more than $250 million. We issued several reports on
the acquisition. Collectively or individually, our reports concluded:

   •   The Postal Service did not adequately consider the number of trailers required,
       and consequently, may have leased more trailers than needed.

   •   The Postal Service could have saved money by purchasing needed trailers,
       instead of leasing them.

   •   The acquisition decision was not supported by reliable data, necessary
       documentation, or adequate records.

   •   The acquisition decision did not comply with the analytical or approval
       requirements of Postal Service “expense investment” policy, which requires
       leases and major corporate initiatives to be supported by a decision analysis
       report.

We recommended that in accordance with investment policy, management prepare a
decision analysis report and submit it to the Board of Governors for approval. However,
management stated that they were not obligated to prepare a decision analysis report or
comply with investment policy because the acquisition was not a capital investment; the
National Trailer Lease was not a lease; decision analysis reports were too costly to
prepare; and the procurement did not reach the Governors’ threshold of materiality.

   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
In July 2002, to resolve disagreement, you instructed Operations to complete a trailer
plan analysis, and Finance to independently verify it “just as capital projects are.” Since
capital projects are analyzed and verified in accordance with decision analysis report
procedures specified by Postal Service investment policy, we welcomed your
instructions to management, and considered them responsive to our decision analysis
report recommendation.

In April 2004, Corporate Audit Response notified us that management had completed
the analysis and verification you directed. Since you instructed management to analyze
and independently verify the leasing plan “just as capital projects are,” we anticipated
that the analysis and verification would be prepared and validated with the same
exacting criteria as a decision analysis report.

Our examination of the “analysis” identified it as substantially the same as
management’s response to our original 2002 draft audit report. That response was the
subject of our original audit resolution referral. Consequently, we concluded that the
analysis was not prepared in accordance with your instructions. Our examination of the
Finance “verification’” also concluded that the verification was not prepared in
accordance with your instructions.

Since the resubmitted audit response and verification did not comply with our
expectations, we considered disagreement with our audit recommendations unresolved.
We recommended that you (1) reinforce and clarify your instructions to management
and (2) establish guidance to clarify the appropriate level of analysis and authority when
leases or major operational investments are not covered by investment policy.

On December 1, 2004, we met with management officials to review our conclusions. As
a result of that meeting, subsequent discussion, and in the context of other related audit
work, management agreed to reaffirm previous commitments. Specifically,
management reaffirmed that:

   •   They would use new data to perform a new analysis of the trailer leasing plan,
       and that they would perform the analysis in sufficient time to allow the Office of
       Inspector General (OIG) to examine it before the first National Trailer Lease
       extension in 2006.

   •   They would clarify Postal Service investment policy as part of an entire revision
       of Postal Service Handbook F-66, General Investment Policies and Procedures.

In consideration of management’s commitment to clarify policy and perform a new
analysis, we will close outstanding unresolved decision analysis report
recommendations from previous audit reports (See Appendix A). Closing the
unresolved audit recommendations will have the effect of removing the associated
monetary findings from the Semiannual Report to Congress, and those reports can be
closed in the Postal Service follow-up tracking system. We commend management for
their continuing efforts to work with us to resolve these issues.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
actions are completed. These recommendations should not be closed in the follow-up
tracking system until the OIG provides written confirmation that the recommendations
can be closed.

We appreciate your efforts to facilitate the audit resolution process. If you have any
questions, please contact me at (703) 248-2300.

/s/ Gordon C. Milbourn III

Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachment

cc: Patrick R. Donahoe
    Richard J. Strasser
    Lynn Malcolm
    Paul E. Vogel
    Keith Strange
    Steven R. Phelps
Vehicle Management – National Trailer Lease – Unresolved                         NL-MA-05-001
 Audit Recommendations


                                      INTRODUCTION
Background                    During fiscal year 2000, the Postal Service began a major,
                              multiphased, corporate initiative to terminate local trailer
                              contracts, centralize trailer acquisition at Postal Service
                              Headquarters, and commit to a single national contractor.

                              In September 2000, the Postal Service signed a “National
                              Trailer Lease” for 4,475 trailers with Transportation
                              International Pool, Inc., a wholly-owned trailer and
                              equipment leasing subsidiary of General Electric. The
                              anticipated cost of the 12-year agreement was more than
                              $250 million. Management stated that the centralized
                              national contract would reduce the average cost to lease a
                              trailer from $11.57 to $10.21 per day, and save the Postal
                              Service more than $2.2 million annually.




   National Trailer Lease
     equipment at the
       San Francisco
     Bulk Mail Center
    February 11, 2004




                              In March 2002, the New York Metro Area requested
                              1,500 additional trailers under National Trailer Lease
                              Phase II. The lease plus renewal option was again
                              12 years, and the anticipated cost exceeded $40 million.
                              New York explained they were excluded from Phase I
                              because at the time Phase I was negotiated, their local
                              contracts would not expire for three years.

                              We audited National Trailer Lease Phase I and Phase II
                              (See Appendix A), and concluded that the Postal Service
                              did not properly analyze the trailer procurement decision.
                              Specifically:

                                  •   The Postal Service did not adequately consider the
                                      number of trailers required, and consequently, may
                                      have leased more trailers than needed.




                                                  1
Vehicle Management – National Trailer Lease – Unresolved                           NL-MA-05-001
 Audit Recommendations


                                  •   The Postal Service could have saved money by
                                      purchasing needed trailers instead of leasing them.

                                  •   The acquisition decision was not supported by
                                      reliable data, necessary documentation, or adequate
                                      records.

                                  •   The acquisition decision did not comply with Postal
                                      Service “expense investment” policy.

                              We recommended that in accordance with investment
                              policy, management prepare a Decision Analysis Report
                              and submit it to the Board of Governors for approval.




   National Trailer Lease
     equipment at the
       San Francisco
     Bulk Mail Center
    February 11, 2004




                              Management acknowledged that the New York acquisition
                              was a planned phase of the National Trailer Lease, and that
                              policy required multiphased acquisitions to be presented as
                              a single plan. Management agreed that New York already
                              had more trailers than needed, agreed to immediately return
                              300 trailers to suppliers, and estimated that returning trailers
                              would save more than $1 million annually. Management
                              also acknowledged that Postal Service computer data was
                              unreliable because it did not accurately capture all
                              operational requirements.

                              However, management stated that they were not obligated
                              to comply with investment policy or prepare a decision
                              analysis report because:

                                  •   The acquisition was not a capital investment.

                                  •   The “National Trailer Lease” was not a lease, it was a
                                      service contract.




                                                  2
Vehicle Management – National Trailer Lease – Unresolved                            NL-MA-05-001
 Audit Recommendations



                                  •   Decision analysis reports were too costly to prepare.

                                  •   The National Trailer Lease did not reach the
                                      Governors’ threshold of materiality.

                              Management’s position was inconsistent with investment
                              policy:

                                  •   An acquisition does not have to be a “capital
                                      investment” to be subject to policy. The policy
                                      identifies “expense investments” as another
                                      investment category subject to its provisions.

                                  •   The policy explains that “expense investments”
                                      include both leases and major corporate initiatives,
                                      and further defines major corporate initiatives as
                                      operating fund expenditures exceeding $7.5 million
                                      over a project period.

                                  •   For purposes of determining project period,
                                      investment policy requires the inclusion of the initial
                                      lease term plus all renewal options. The National
                                      Trailer Lease plus renewal option is 12 years.

                                  •   Investment policy requires that lease agreements
                                      exceeding $10 million be forwarded to the Board of
                                      Governors for final approval. The anticipated cost of
                                      the National Trailer Lease is more than $250 million.

                              Since management did not concur with our opinion that
                              Postal Service investment policy applied, we referred the
                              matter to audit resolution. During resolution, the Deputy
                              Postmaster General instructed Operations to complete a
                              trailer lease analysis, and instructed Finance to verify it just
                              as capital projects are. Capital projects are analyzed and
                              validated in accordance with investment policy, specifically
                              the decision analysis report provisions of Postal Service
                              Handbook F-66, General Investment Policies and
                              Procedures. We welcomed the Deputy Postmaster
                              General’s instructions to management, and considered the
                              instructions responsive to our decision analysis report
                              recommendation.




                                                  3
Vehicle Management – National Trailer Lease – Unresolved                                  NL-MA-05-001
 Audit Recommendations



                              Investment policy stipulates that before a lease versus buy
                              analysis is performed, organizations requesting the
                              acquisition must first establish that the investment is actually
                              needed. The provisions emphasize that the investment
                              decision to actually acquire assets must always be
                              separated from the lease or buy financing decision. In
                              2001, senior management issued a memorandum
                              addressing lease versus buy. The memorandum—like the
                              Deputy Postmaster General’s instructions—specified that
                              the same exacting criteria used for a capital purchase
                              should be used for equipment leases.

                                                                                    April 9, 2001
                                     Memorandum to Postal Service Officers:

                                     “…In ‘lease versus buy’ alternatives, the substitution of
                                     leasing equipment instead of purchase must be examined
                                     under the same exacting criteria as a capital purchase.
                                     Circumventing the capital process by leasing equipment
                                     does not help the bottom-line, and does have an immediate
                                     impact on our cash outlays…”

                                     Richard J. Strasser, Jr.     John E. Potter
                                     Chief Financial Officer      Chief Operating Officer
                                     Executive Vice President     Executive Vice President



                              In April 2004, Corporate Audit Response notified us that
                              management had completed the analysis and verification
                              the Deputy Postmaster General directed on July 22, 2002.

Objective, Scope, and         The objective of this report is to notify management of our
Methodology                   opinion regarding the documents submitted to address the
                              Deputy Postmaster General’s instructions and our
                              recommendations.

                              During our work, we interviewed Postal Service officials,
                              examined documents and supporting records submitted by
                              management, reviewed related ongoing audit work, and
                              consulted with statisticians, economists, financial analysts,
                              and other subject matter experts.

                              Work associated with this report was conducted from
                              May 2004 through April 2005 in accordance with the
                              President’s Council on Integrity and Efficiency, Quality
                              Standards for Inspections. We discussed our observations
                              and conclusions with appropriate management officials and
                              included their comments where appropriate.



                                                  4
Vehicle Management – National Trailer Lease – Unresolved                          NL-MA-05-001
 Audit Recommendations


                                           RESULTS
Trailer Acquisition           The documents Corporate Audit Response provided did not
Analysis                      properly consider:

                                  •   Whether all trailers acquired were actually needed.

                                  •   Whether needed trailers should be owned or leased.

                              Consequently, they were inconsistent with Postal Service
                              investment policy and the Deputy Postmaster General’s
                              instructions. As a result, disagreement with our
                              recommendations remained unresolved.




            Two
   National Trailer Lease
   trailers passing near
         Springfield,
      Massachusetts,
       March 2, 2004




Management                    Two commitments, by management in 2002, drove our
Commitments                   expectations regarding the analysis management was to
                              prepare.

                                  •   On January 7, 2002, management explained that the
                                      new trailer lease would provide new data; that they
                                      would use that new data to perform a new analysis
                                      before the first lease extension in 2006; and that they
                                      would welcome OIG review of the new analysis prior
                                      to lease extension.

                                  •   On July 22, 2002, the Deputy Postmaster General
                                      told us that management would analyze and
                                      independently verify the leasing plan so that the
                                      analysis would be comparable to what would be
                                      found in a decision analysis report.




                                                  5
Vehicle Management – National Trailer Lease – Unresolved                          NL-MA-05-001
 Audit Recommendations


                              Our examination of the “analysis” identified it as
                              substantially the same as management’s response to our
                              original 2002 draft audit report, which was the subject of our
                              original audit resolution referral. We published
                              management’s original response, in its entirety, in our report
                              dated March 29, 2002—and also published a detailed
                              critique. Concerns specified in our critique remain the
                              same.

                              Beyond our detailed critique of management’s original audit
                              report response, the documents management submitted in
                              2004, did not comply with the Deputy Postmaster General’s
                              instructions or investment policy. For example:

                                  •   The Deputy Postmaster General instructed
                                      Operations to complete a trailer lease analysis. The
                                      resubmitted response was prepared by Supply
                                      Management—not Operations.

                                  •   Investment policy specifies that the project sponsor
                                      analyze operations to determine if the acquisition is
                                      actually needed. The resubmitted response never
                                      contained an operational requirement assessment,
                                      and consequently, never evaluated whether all
                                      trailers were actually necessary.

                                  •   Investment policy requires accurate data, and states
                                      that when computer generated data is not reliable,
                                      data must be collected manually. The resubmitted
                                      response relied on inaccurate data. Our ongoing
                                      work identified significant data and record retention
                                      weaknesses. Consequently, we questioned the need
                                      for 700 trailers in the New York Metro Area, and the
                                      need for 250 trailers in the Northeast Area.

                                  •   Investment policy requires that various phases of a
                                      project requiring implementation over several years
                                      be presented as a single project. The resubmitted
                                      response related only to National Trailer Lease
                                      Phase I—not Phase II. As a result, the response was
                                      incomplete. In May 2004, officials explained that the
                                      Phase II analysis management agreed to perform in
                                      2002 was not yet complete, and would not be
                                      completed for several months. The Phase II analysis
                                      still has not been completed.




                                                  6
Vehicle Management – National Trailer Lease – Unresolved                                NL-MA-05-001
 Audit Recommendations



Independent                   The Deputy Postmaster General instructed Finance to
verification                  independently verify Operations’ analysis “just as capital
                              projects are.” Capital projects are verified in accordance
                              with Postal Service investment policy, which defines
                              “independent verification” as synonymous with “validation.”
                              The policy states:

                                      “A validation is an independent verification of
                                      the accuracy and integrity of the statements,
                                      assumptions, data, and performance tracking
                                      methods presented in support of a project.”

                              However, Finance acknowledged that a validation was not
                              done. Finance explained that there was an important
                              distinction between a validation and a verification, that the
                              Deputy Postmaster General only directed a verification, and
                              never intended a validation. Finance emphasized that since
                              a decision analysis report was not prepared, a validation
                              was not required.

                              Consequently, the Finance verification was not conducted in
                              accordance with the validation standards specified by
                              investment policy. For example:

                                  •   Ongoing audit work identified numerous data
                                      integrity, documentation, record retention, and
                                      internal control issues. Senior Postal Service officials
                                      agreed computer data associated with trailer use is
                                      unreliable, and in several reports, we noted that
                                      inaccurate data and other internal control issues
                                      constrained our work. Finance did not evaluate or
                                      verify the accuracy, reliability, or completeness of
                                      data underlying the resubmitted response; did not
                                      confirm, as required, that supporting documentation
                                      complied with investment policy; and did not identify
                                      exceptions associated with data integrity issues.

                                  •   The resubmitted response did not include a
                                      requirement assessment to determine how many
                                      trailers were actually needed, and Finance did not
                                      identify the absence of a requirement assessment as
                                      an exception to investment policy.

                              Since the analysis and verification were not substantially the
                              same as a decision analysis report and validation; since



                                                  7
Vehicle Management – National Trailer Lease – Unresolved                          NL-MA-05-001
 Audit Recommendations


                              National Trailer Lease Phase I and Phase II were not
                              presented as a single plan; and because there was no
                              requirement assessment to consider if all the trailers
                              acquired were actually needed, it is our opinion that the
                              resubmitted response, and the Finance verification of that
                              response, did not address the Deputy Postmaster General’s
                              instructions. Consequently, we considered disagreement
                              with our audit recommendation unresolved.

                              It is the OIG’s position that the analytical, verification, and
                              approval procedures established by Postal Service expense
                              investment policy, for leases and major corporate initiatives,
                              provide an excellent framework for analyzing, validating,
                              and approving major procurement decisions. Management
                              contends that the National Trailer Lease was neither a lease
                              nor an initiative, and that as a result, Postal Service
                              investment policy does not apply. Based on that
                              interpretation, we could not identify a Postal Service policy
                              that provided the analytical discipline commensurate with a
                              $250 million trailer acquisition. Consequently, we are
                              concerned about a potential policy void.

Recommendation                We recommend the Deputy Postmaster General:

                                  1. Reinforce and clarify instructions to Postal Service
                                     management regarding the analysis and verification
                                     of the National Trailer Lease.

                                  2. Establish guidance to clarify the appropriate level of
                                     decision analysis and authority, consistent with the
                                     magnitude of the business decision being made,
                                     when leases or major operational changes are not
                                     covered by investment policy.

Management                    On December 1, 2004, we met with management officials to
Agreements                    review our conclusions. As a result of the meeting,
                              subsequent discussion, and in the context of other related
                              audit work, management agreed to reaffirm previous
                              commitments. Specifically, management reaffirmed that:

                                  •   They would use new data to perform a new analysis
                                      of the trailer leasing plan, and that they would
                                      perform the analysis in sufficient time to allow the
                                      OIG to examine it before the first National Trailer
                                      Lease extension in 2006.



                                                  8
Vehicle Management – National Trailer Lease – Unresolved                           NL-MA-05-001
 Audit Recommendations



                                  •   They would clarify Postal Service investment policy
                                      as part of an entire revision of Postal Service
                                      Handbook F-66, General Investment Policies and
                                      Procedures.

Evaluation of                 Management’s agreements are responsive to our
Management                    recommendations, and we consider their commitment to
Agreements                    clarify policy and perform a new analysis sufficient to
                              address the issues we identified.

                              In consideration of management’s commitment to clarify
                              policy and perform a new analysis, we will close outstanding
                              unresolved decision analysis report recommendations from
                              previous audit reports as follows:

                                  •   Trailer Lease Justification (Report Number
                                      TD-AR-02-002, March 29, 2002).

                                  •   New York Metro Area Operational Use of Trailers
                                      (Report Number TD-MA-03-001, January 29, 2003).

                                  •   New York Metro Area Trailer Acquisition – Lease
                                      versus Buy (Report Number TD-AR-03-009,
                                      March 31, 2003).

                              Closing the unresolved audit recommendations will have the
                              effect of removing the associated monetary findings from
                              the Semiannual Report to Congress, and those reports can
                              be closed in the Postal Service follow-up tracking system.
                              We commend management for their continuing efforts to
                              work with us to resolve these issues.




                                                  9
 Vehicle Management – National Trailer Lease – Unresolved                       NL-MA-05-001
  Audit Recommendations


                 APPENDIX A. PRIOR REPORT CONCLUSIONS

This report explains that our various reports on National Trailer Lease Phase I and
Phase II, either collectively or individually, concluded the Postal Service did not properly
analyze the trailer procurement decision—and we provided specific examples. The
purpose of this appendix is to cross reference the specific examples to various reports.

   “The Postal Service did not adequately consider the number of trailers needed
   for operations, and consequently, may have leased more trailers than
   needed.”

           •   New York Metro Area Operational Use of Trailers (Report Number
               TD-MA-03-001, January 29, 2003).

   “The Postal Service could have saved money by purchasing needed trailers
   instead of leasing them.”

           •   Trailer Lease Justification (Report Number TD-AR-02-002, March 29,
               2002).

           •   New York Metro Area Trailer Acquisition – Lease versus Buy (Report
               Number TD-AR-03-009, March 31, 2003).

    “The acquisition decision was not supported by reliable data, necessary
    documentation, or adequate records.”

           •   Trailer Lease Justification (Report Number TD-AR-02-002, March 29,
               2002).

           •   New York Metro Area Trailer Acquisition – Lease versus Buy (Report
               Number TD-AR-03-009, March 31, 2003).

    “The acquisition decision did not comply with Postal Service ‘expense
    investment’ policy.”

           •   Trailer Lease Justification (Report Number TD-AR-02-002, March 29,
               2002).

           •   New York Metro Area Trailer Acquisition – Lease versus Buy (Report
               Number TD-AR-03-009, March 31, 2003).




                                                  10
